The Inspector General
National Archives and Records Administration


                                      INDEPENDENT AUDITOR’S REPORT


We have audited the accompanying consolidated balance sheet of the National Archives and Records
Administration (NARA) as of September 30, 2010 and 2009, and the related Statements of Net Cost,
Changes in Net Position, and Budgetary Resources for the years then ended. These financial statements
are the responsibility of NARA management. Our responsibility is to express an opinion on the financial
statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States
of America; standards applicable to financial statement audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and Office of Management and
Budget (OMB) audit guidance. Those standards require that we plan and perform the audit to obtain
reasonable assurance about whether the financial statements are free of material misstatement. An
audit includes examining, on a test basis, evidence supporting the amounts and disclosures in the
financial statements. An audit also includes assessing the accounting principles used and significant
estimates made by management, as well as evaluating the overall financial statements’ presentation.
We believe that our audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above, present fairly, in all material respects, the
financial position of NARA as of September 30, 2010 and 2009, and its net cost, changes in net position,
and budgetary resources for the year then ended, in conformity with accounting principles generally
accepted in the United States of America.

In accordance with Government Auditing Standards, we have also issued our reports dated November
12, 2010, on our consideration of NARA’s internal control over financial reporting, and on our tests of
NARA’s compliance with certain provisions of laws and regulations and other matters. The purpose of
those reports is to describe the scope of our testing on internal control over financial reporting and
compliance, and the results of that testing, and not to provide an opinion on the internal control over
financial reporting or on compliance. Those reports are an integral part of an audit performed in
accordance with Government Auditing Standards and should be read in conjunction with this report, in
considering the results of our audits.

The information in the Management Discussion and Analysis and Required Supplementary Information
sections is not a required part of the consolidated financial statements, but is supplementary
information required by accounting principles generally accepted in the United States of America. We
have applied certain limited procedures, which consisted principally of inquiries of management
regarding methods of measurement and presentation of this information. We did not, however, audit
this information and, accordingly, we express no opinion on it.
Our audits were conducted for the purpose of forming an opinion on the consolidated financial
statements taken as a whole. The information in the Message from the Archivist, Performance Section,
and Other Accompanying Information is presented for purposes of additional analysis and is not
required as part of the consolidated financial statements. This information has not been subjected to
auditing procedures and, accordingly, we express no opinion on it.


COTTON & COMPANY LLP

Colette Y. Wilson
Partner




Alexandria, Virginia
November 12, 2010
The Inspector General
National Archives and Records Administration


                            INDEPENDENT AUDITOR’S REPORT ON INTERNAL CONTROL

We have audited the financial statements of the National Archives and Records Administration (NARA)
as of September 30, 2010 and 2009, and have issued our report thereon dated November 12, 2010. We
conducted our audits in accordance with auditing standards generally accepted in the United States of
America; standards applicable to financial audits contained in Government Auditing Standards, issued by
the Comptroller General of the United States; and Office of Management and Budget (OMB) audit
guidance.

In planning and performing our audits of NARA’s financial statements as of and for the year ended
September 30, 2010 and 2009, in accordance with auditing standards generally accepted in the United
States of America, we considered NARA’s internal control over financial reporting (internal control) as a
basis for designing our auditing procedures for the purpose of expressing our opinion on the financial
statements, but not for the purpose of expressing an opinion on the effectiveness of NARA’s internal
control. Accordingly, we do not express an opinion on the effectiveness of NARA’s internal control.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or combination
of deficiencies, in internal control, such that there is a reasonable possibility that a material
misstatement of an entity's financial statements will not be prevented, or detected and corrected on a
timely basis.

Our consideration of internal control was for the limited purpose described in the second paragraph and
was not designed to identify all deficiencies in internal control that might be deficiencies, significant
deficiencies, or material weaknesses. We did not identify any deficiencies in internal control that we
consider to be material weaknesses, as defined above. However, we identified certain deficiencies in
internal control that we consider to be a significant deficiency. A significant deficiency is a deficiency, or
a combination of deficiencies, in internal control that is less severe than a material weakness, yet
important enough to merit attention by those charged with governance.




                                                      1
INFORMATION TECHNOLOGY

During Fiscal Year (FY) 2010, NARA continued to make improvements in its information technology (IT)
control environment by addressing recommendations made in previous audits. Improvements are still
needed in the IT control areas of access controls and configuration management, as noted below and in
Appendix A to this report.

In addition, contingency planning and security management issues identified in prior years also remain
open. Deficiencies identified during the FY 2010 financial statement audit are discussed below. These
issues, combined with open recommendations from the prior-year financial statement audit (see
Appendix A), collectively represent a significant deficiency in internal control over financial reporting.

Access Controls

Access controls provide reasonable assurance that access to computer resources is reasonable and
restricted to authorized individuals. NARA’s procedures for creating, identifying and authenticating, and
providing accountability over NARANet accounts did not ensure that all accounts were properly
authorized. Specific issues identified during testing are discussed below.

Account Creation. NARA has not implemented sufficient account creation controls to ensure that all
new NARANet accounts are requested and authorized by a user’s supervisor, or that the help desk
ticket/access form process is properly followed. In our tested sample of new accounts, we noted the
following issues:

    •   Proper documentation did not exist to support the creation of the account

    •   Accounts were created without first obtaining adequate supervisory approval

    •   Accounts were initiated by the end-user

National Institute of Standards and Technology (NIST) Special Publication (SP) 800-53, Revision 3:
Recommended Security Controls for Federal Information Systems and Organizations, requires the
following:

        AC-2 ACCOUNT MANAGEMENT

        The organization manages information system accounts, including:

        a. Identifying account types (i.e., individual, group, system, application, guest/anonymous, and
           temporary);
        b. Establishing conditions for group membership;
        c. Identifying authorized users of the information system and specifying access privileges;
        d. Requiring appropriate approvals for requests to establish accounts;…
        i. Granting access to the system based on: (i) a valid access authorization; (ii) intended system
           usage; and (iii) other attributes as required by the organization or associated
           missions/business functions; and
        j. Reviewing accounts [Assignment: organization-defined frequency].


                                                     2
Without effective account creation/authorization controls in place, NARA cannot ensure that current
employees are not requesting unapproved and unauthorized access, potentially making them
unauthorized members of groups that can access files and spreadsheets stored on financial share drives.
NARA does require a badge to obtain a network account, which serves as a compensating control to
ensure this weakness cannot be exploited by an individual who does not already have access to NARA
facilities.

Recommendation 1. We recommend that the NARA Chief Information Officer (CIO) require a record of
logged-in users creating account requests to show that request are being generated by a supervisor, not
the user.

Identification and Authentication. Identification and Authentication controls provide reasonable
assurance that individual users are uniquely identified and authenticated for all accesses other than
those explicitly identified and documented by an organization. To properly address this requirement,
the unique identification of individuals with access to group accounts (e.g., shared privilege accounts)
must be considered for detailed accountability of activity.

NARA has not implemented sufficient Identification and Authentication controls to ensure that the
Order Fulfillment and Accounting System (OFAS) application uniquely identifies all application users. We
identified a shared domain administrator account within OFAS that is used as an OFAS support team
group account with a shared password to perform activities in the OFAS application.

NIST SP 800-53, Revision 3, requires the following:

        IA-2 IDENTIFICATION AND AUTHENTICATION (ORGANIZATIONAL USERS)

        The information system uniquely identifies and authenticates organizational users (or
        processes acting on behalf of organizational users).

        Supplemental Guidance: Organizational users include organizational employees or
        individuals the organization deems to have equivalent status of employees (e.g.,
        contractors, guest researchers, individuals from allied nations). Users are uniquely
        identified and authenticated for all accesses other than those accesses explicitly
        identified and documented by the organization in AC-14. Unique identification of
        individuals in group accounts (e.g., shared privilege accounts) may need to be considered
        for detailed accountability of activity.

Without the ability to uniquely identify and authenticate individual users of the shared Domain Admin
account, accountability for activities and events performed by the account cannot be established.

Recommendation 2. We recommend that the NARA CIO assign one individual to the shared account, or
split responsibilities of the shared account to additional administrator accounts, to allow accountability
of administrator activities to be established.

Audit and Accountability. Audit and Accountability controls provide reasonable assurance that an
organization is complying with required industry standards, as well as its own policies and procedures.
NARA has not implemented sufficient audit and accountability controls over audit settings and logging
and monitoring, as described below.

                                                      3
    •   Audit Settings. Audit Settings within an information system define what events or activities
        generate an audit log and what information about the event is recorded is included in the log.
        During the audit, we noted that NARANet’s audit settings were not configured to log group
        membership add and delete activities.

    •   Logging and Monitoring. Logging and Monitoring is the process an organization follows to track,
        review, and escalate (if necessary) the events captured in audit logs generated by the
        system/OS/network/application. During the audit, we noted that NARA’s Audit and
        Accountability Methodology is not being enforced or followed. General Support System (GSS)
        and application-specific issues noted during testing are discussed below:

        −   OFAS. Controls were not adequate to ensure that the OFAS application was configured to
            log all required auditable events (per NARA IT Security Methodology for Audit and
            Accountability) and that procedures were implemented to appropriately review these logs
            on a regular basis. OFAS was reconfigured on September 29, 2010, to begin to log account
            creations, deletions, and modifications. Before this, settings were not in place, and there is
            still no formal process for reviewing the logs periodically.

        −   NARANet. NARA personnel reviewed network activity logs on an as-needed basis, but not
            routinely and periodically. Management is currently working to address this by
            implementing a log consolidation and monitoring tool, Netforensics.

        −   RCPBS. Controls were not adequate to ensure that the Records Center Program Billing
            System (RCPBS) application was configured to log all required auditable events (per NARA IT
            Security Methodology for Audit and Accountability) and that procedures were implemented
            to appropriately review these logs on a regular basis. We found no evidence to show that
            RCPBS is configured to log all required events, or that standard log monitoring procedures
            were established and are being performed.

NIST SP 800-53, Revision 3, requires the following:

        AU-6 AUDIT REVIEW, ANALYSIS, AND REPORTING

        The organization:

        a. Reviews and analyzes information system audit records [Assignment: organization-defined
           frequency] for indications of inappropriate or unusual activity, and reports findings to
           designated organizational officials; and

        b. Adjusts the level of audit review, analysis, and reporting within the information system when
           there is a change in risk to organizational operations, organizational assets, individuals,
           other organizations, or the Nation based on law enforcement information, intelligence
           information, or other credible sources of information.

Additionally, NARA IT Security Methodology for Audit and Accountability, dated July 15, 2009, requires
the following:


                                                      4
       2 AUDITABLE EVENTS [AU-2]

       This section describes how NARA meets the NARA IT Security Architecture control [AU-2] for
       Auditable Events.

       NARA’s security policy for Auditable Events is as follows:

       NARA Office of IT Services (NH) develops, disseminates, and at least annually reviews and
       updates a formal, documented audit and accountability policy that addresses purpose, scope,
       roles, responsibilities, management commitment, coordination among NARA entities, and
       compliance; and formal, documented procedures to facilitate the implementation of the audit
       and accountability policy and associated audit and accountability controls.

       NARA’s security requirements for Auditable Events are as follows:

       [AU-2.1] Each information system generates audit records for the following events:

                   •   Startup and shutdown
                   •   Account Creation
                   •   Authentication
                   •   Authorization and Permission granting/changing
                   •   Actions by trusted users
                   •   Password changes for privileged users
                   •   Unsuccessful login attempts

       [AU-2.2] NH shall identify important events which need to be audited as significant and relevant
       to the security of each information system. System Owner shall identify any additional specific
       events relevant to the system’s sensitivity level. Audit records shall be generated at various levels
       of abstraction, including at the packet level as information traverse the network. System Owner
       shall specify in the SSP which information system components carry out auditing activities. The
       security audit function shall coordinate with the network health and status monitoring function
       to enhance the mutual support between the two functions by the selection of information to be
       recorded by each function.

Without appropriately configured audit settings and an effective logging and monitoring process,
management cannot ensure that only appropriate accesses and activities are taking place.

Recommendation 3. We recommend that the NARA CIO:

   •   Reconfigure audit settings within the NARANet Novell environment to log group membership
       add and delete activities.

   •   Continue with the implementation of Netforensic and, once in place, ensure that procedures
       exist for identifying key events that will be alerted to and reviewed by management on a
       periodic basis.

   •   Continue with efforts to audit account creations, deletions, and modifications within OFAS and
       develop standard procedures for regularly reviewing and monitoring application audit logs.
                                                    5
    •   Enable logging of all events within RCPBS, required by NARA IT Security Methodology for Audit
        and Accountability, and develop standard procedures for regularly reviewing and monitoring
        application activity logs.

Configuration Management

Configuration Management controls provide reasonable assurance that changes to an organization’s IT
infrastructure, hardware, or software are properly managed and tracked, and that baseline
configurations are defined and configured within the production environment. During testing, we
identified issues with NARA’s baseline configuration practices. They are discussed below.

Configuration baselines provide current specifications for how an information system/network device,
application, hardware, and software are built. Additionally, baselines provide individuals with
configuration management responsibilities within the organization, a benchmark to compare against
actual configurations.

NARA has developed configuration instructions and has a beginning baseline for configuration for
switches. Configuration instructions or baselines are not, however, in place for NARA’s routers and
firewalls. The current baseline is not based on and does not address all areas in approved checklists for
router and firewall platforms and devices in use contained in NIST SP 800-70, National Checklist Program
for IT Products – Guidelines for Checklist Users and Developers.

NIST SP 800-53, Revision 3, requires the following:

        CM-6 CONFIGURATION SETTINGS

        The organization:
        a. Establishes and documents mandatory configuration settings for information technology
            products employed within the information system using [Assignment: organization-defined
            security configuration checklists] that reflect the most restrictive mode consistent with
            operational requirements;
        b. Implements the configuration settings;
        c. Identifies, documents, and approves exceptions from the mandatory configuration settings
            for individual components within the information system based on explicit operational
            requirements; and
        d. Monitors and controls changes to the configuration settings in accordance with
            organizational policies and procedures.

Additionally, NARA IT Security Methodology for Configuration Management, dated January 13, 2010,
requires the following:

        6 Configuration Settings [CM-6]

        This section describes how NARA meets the NARA IT Security Architecture control [CM-6] for
        Configuration Settings.

        NARA’s security policy for Configuration Settings is as follows:

                                                      6
        NARA Office of Information Services (NH) establishes mandatory configuration settings for
        information technology products employed within the information system, configures the
        security settings of information technology products to the most restrictive mode consistent with
        operational requirements, documents the configuration settings, and enforces the configuration
        settings in all components of the information system.

        NARA’s security requirements for Configuration Settings are as follows:
        [CM-6.1] NH shall establish mandatory configuration settings for information technology
        products employed within the information system, configure the default security settings of
        information technology products to the most restrictive mode consistent with operational
        requirements, document the configuration settings, and enforce the configuration settings in all
        components of the information system.

        [CM-6.2] NH shall monitor and control changes to the configuration settings in accordance with
        NARA policies and procedures.

        [CM-6.3] NIST SP 800-70 shall be used for guidance on producing and using configuration
        settings (i.e., checklists) for information technology products employed in NARA information
        systems.

        [CM-6.4] For high integrity information systems, NARA shall employ mechanisms to centrally
        manage, apply and verify configuration settings.

The absence of documented full configuration baselines increases the risk that: unauthorized access
may occur, security weaknesses could exist within the NARANet architecture and not be detected by
management in a timely manner, and computing resources are not in compliance with established
baselines.

Recommendation 4. We recommend that the NARA CIO improve upon NARA’s current router and
firewall build process by updating their standard configuration file to be based on NIST-approved
security checklists for router and firewall platforms and devices in use by NARA. We also recommend
that the final standard configuration be documented and compared against devices to monitor for
configuration compliance on a periodic basis.

STATUS OF PRIOR-YEAR RECOMMENDATIONS

We reviewed the status of NARA’s corrective actions with respect to the significant deficiencies from the
prior-year report on internal control. Appendix A to this report provides details of the status of
recommendations.

NARA’s management response to the significant deficiency identified in our report is included as
Appendix B to this report. We did not audit NARA’s response and, accordingly, we provide no opinion on
it.

In addition to the significant deficiency described above, we noted certain matters involving internal
control and its operation that will be reported to NARA management in a separate letter.



                                                    7
This report is intended solely for the information and use of management of NARA, NARA Office of
Inspector General, Government Accountability Office, OMB, and Congress, and is not intended to be and
should not be used by anyone other than those specified parties.

COTTON & COMPANY LLP



Colette Y. Wilson, CPA
Partner

Alexandria, Virginia
November 12, 2010




                                                 8
                 APPENDIX A
NATIONAL ARCHIVES AND RECORDS ADMINISTRATION
   STATUS OF PRIOR-YEAR RECOMMENDATIONS
             SEPTEMBER 30, 2010
                                               APPENDIX A
                              NATIONAL ARCHIVES AND RECORDS ADMINISTRATION
                                 STATUS OF PRIOR-YEAR RECOMMENDATIONS
                                           SEPTEMBER 30, 2010

Condition/Audit Area and Recommendations                           Status as of September 30, 2010
Personal Property
1. Finalize and implement its personal property policies                         Closed
    and procedures manual during the first quarter of FY
    2010.
2. Provide personal property-related training to NARA                            Closed
   employees.
3. Design and implement monitoring procedures to                                 Closed
   ensure NARA employees adhere to personal property-
   related policies and procedures.
4. Design and implement procedures to ensure the                                 Closed
   accountability of assets in the custody of contractors.
5. Continue to implement personal property accounting            Open, however no longer a significant
   functionality within the Maximo system, and in doing      deficiency. This deficiency will be reported to
   so, ensure that the application has adequate                    management in a separate report.
   functionality to meet the requirements articulated by
   the Joint Financial Management Improvement
   Program (JFMIP) in its document titled, Property
   Management Systems Requirements.
6. Perform a risk assessment to determine if it has                              Closed
   sufficient procedures in place to mitigate risks posed
   by the manual processes used to account for personal
   property transactions.
7. Design and implement controls, as necessary, to                               Closed
   address significant risks identified during the risk
   assessment.
Access Controls
8. Implement a process for managing NARANET accounts                      Partially Open
   that:                                                   (Termed users are not having access removed
                                                           in a timely manner. Generic accounts are not
    a) Requires a recertification of all system accounts   catalogued and assigned ownership to an
        at least annually.                                 individual.)
    b) Ensures all accounts are tied to a specific
        individual who has the responsibility for
        managing the account, and determining the
        ongoing need for non-login accounts.
    c) Identifies inactive accounts on a regular basis and
        removes access in a timely manner.
    d) Ensures all access and privileges of terminated
        employees are promptly removed.
9. Implement a more restrictive password age control                          Closed
   for NARANET that is consistent with requirements for
   Federal information systems.
Condition/Audit Area and Recommendations                       Status as of September 30, 2010
10. Implement a process for managing RCPBS accounts
    that:
     a) Requires a recertification of all system accounts                  Open
         at least annually.
     b) Identifies inactive accounts on a regular basis and                Closed
         removes or disables access in a timely manner.

       c) Implements a more restrictive password age                       Open
           control that is consistent with requirements for
           federal information systems.
11.   Implement compensating logging and monitoring                        Closed
      controls for PPMS to ensure that the risk of
      unauthorized access is mitigated.
12.   Enforce its current policies and procedures used to                  Closed
      manage systems and accounts to ensure all access                (see 8 d), above)
      and privileges of terminated employees are promptly
      removed.
13.   Ensure that supervisors receive training in their exit               Open
      clearance process responsibilities, including alerting
      applicable personnel when employees and
      contractors under their supervision no longer require
      access.
14.   Continue effort to finalize the contract with the                    Closed
      independent contractor to provide an assessment of
      NARA’s incident response program, provide targeted
      training to NARA personnel involved with incident
      response, and to conduct simulated exercises.
15.   Develop and implement policies and procedures that                   Open
      prohibit RCPBS users from having multiple accounts as
      well as the ability to enter and approve their own
      transactions.
Contingency Planning
16. Fully implement a contingency planning policy                          Closed
    consistent with guidance provided in NIST SP 800-34,
    Contingency Planning Guide for Information
    Technology Systems. The policy should include
    requirements for updating the contingency plan to
    reflect current operating conditions.
17. Update the contingency and disaster recovery plans                     Closed
    for OFAS to reflect current operating conditions.
18. Update the contingency and disaster recovery plans                     Open
    for RCPBS to reflect current operating conditions.
Security Management
19. Complete risk assessments for all NARNET                               Open
    components.
20. Finalize and approve security plans for all NARANET                    Open
    components.
Condition/Audit Area and Recommendations                   Status as of September 30, 2010
21. Certify each NARANET component, then certify and                     Open
    accredit the entire NARANET general support system.
22. Implement policies and procedures which require the                Open
    completion of security and awareness training before
    being granted access to NARA information systems.
     APPENDIX B
MANAGEMENT COMMENTS
The Inspector General
National Archives and Records Administration


                       INDEPENDENT AUDITOR’S REPORT ON COMPLIANCE AND OTHER MATTERS


We have audited the financial statements of the National Archives and Records Administration (NARA)
as of, and for the year ended September 30, 2010 and 2009, and have issued our report thereon dated
November 12, 2010. We conducted our audits in accordance with auditing standards generally accepted
in the United States of America; standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States; and Office of Management
and Budget (OMB) audit guidance.

NARA’s management is responsible for complying with laws and regulations applicable to NARA. As part
of obtaining reasonable assurance about whether NARA’s financial statements are free of material
misstatements, we performed tests of NARA’s compliance with certain provisions of laws and
regulations that have a direct and material effect on the financial statements. We did not test
compliance with all laws and regulations applicable to NARA. We limited our tests of compliance to
those provisions of laws and regulations required by OMB audit guidance that we deemed applicable to
the financial statements for the fiscal year ended September 30, 2010. We caution that noncompliance
may have occurred and may not have been detected by these tests, and that such testing may not be
sufficient for other purposes.

The results of our tests of compliance with laws and regulations described in the preceding paragraph
disclosed no instances of material noncompliance that are required to be reported under Government
Auditing Standards and OMB audit guidance. Providing an opinion on compliance with certain provisions
of laws and regulations was not, however, an objective of our audit, and, accordingly we do not express
such an opinion.

This report is intended solely for the information and use of management of NARA, NARA Office of
Inspector General, the Government Accountability Office, OMB, and Congress, and is not intended to be
and should not be used by anyone other than those specified parties.

COTTON & COMPANY LLP

Colette Y. Wilson
Partner



Alexandria, Virginia
November 12, 2010
